United States Department of Agriculture
Office of Inspector General




Review of Selected Controls at the
National Information Technology Center




                                          Audit Report 88401-0001-11
                                          September 2012
                          United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250




DATE:          September 26, 2012

AUDIT
NUMBER:        88401-01-11

TO:            Cheryl Cook
               Acting Chief Information Officer
               Office of the Chief Information Officer

ATTN:          Denice Lotson
               Audit Liaison Officer
               Office of the Chief Information Officer

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       Review of Selected Controls at the National Information Technology Center


This report presents the results of the subject review. Your written response is included in its
entirety in the report. Excerpts of your response and the Office of Inspector General’s position
are incorporated into the applicable sections of the report.

We accept management decision for Recommendation 1, noted in the report. In accordance with
Departmental Regulation 1720-1, final action needs to be taken within 1 year of each
management decision to prevent being listed in the Department’s annual Performance and
Accountability Report. In regard to Recommendations 2 and 3, please furnish a reply within 60
days describing the corrective actions taken or planned, and timeframes for implementing the
recommended actions. Please note that the regulation requires management decision to be
reached on all recommendations within 6 months from the report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Section 1: Selected IT Controls Need Strengthening...........................................4
   Finding 1: Selected IT Controls Need Strengthening ......................................4
         Recommendation 1 ........................................................................................5
         Recommendation 2 ........................................................................................5
         Recommendation 3 ........................................................................................5
Scope and Methodology ...........................................................................................6
Abbreviations ...........................................................................................................7
Exhibit A: Office of Inspector General Tests of the Office of the Chief
Information Officer/National Information Technology Center Controls ..........8
Agency’s Response .................................................................................................14
Review of Selected Controls at the National Information Technology
Center (88401-0001-11)

Executive Summary
This report presents the results of our review of selected controls at the Office of the Chief
Information Officer/National Information Technology Center (OCIO/NITC). Specifically, our
review was to assess whether selected controls at OCIO/NITC were in place and operating
effectively in support of key Department of Agriculture (USDA) financial systems from
October 1, 2011, through July 1, 2012, with a focus on the production and backup environments
for the Office of the Chief Financial Officer/National Finance Center’s (OCFO/NFC) EmpowHR
application.1

OCIO/NITC’s mission is to provide reliable and cost effective information technology solutions
to achieve mission performance and program delivery for its USDA and non-USDA customers.
As a customer of OCIO/NITC, OCFO/NFC relies on the effectiveness of the controls tested
during our review.

We identified three exceptions during the course of our review. The following summarizes the
exceptions identified in Finding 1 of this report.

    ·   OCIO/NITC had not developed formal, documented policy and procedures for incident
        response, but instead relied on policy and procedures created for a separate entity.

    ·   OCIO/NITC did not track critical vulnerability mitigation actions identified through
        monthly scanning through the use of Plan of Action and Milestones (POA&M). While
        we found that OCIO/NITC did use an internal system to track and remediate identified
        vulnerabilities, it did not meet Departmental guidelines for the Federal Information
        Security Management Act reporting.

    ·   The alternate processing site at the George Washington Carver Center in Beltsville,
        Maryland, did not provide adequate protection from water damage.




1
  EmpowHR is a web-based human resource system for personnel action processing, position management, and
training.


                                                                    AUDIT REPORT 88401-0001-11             1
Recommendation Summary
We recommended that OCIO/NITC:

    ·    Develop and implement formal documented incident response policy and procedures.

    ·    Implement the Department’s POA&M process for critical vulnerabilities existing more
         than 30 days or, alternatively, obtain a waiver.

    ·    Develop and implement compensating controls to mitigate the risk of water damage at
         the George Washington Carver Data Center.

Agency Response
OCIO/NITC concurs with the finding and recommendations included in the report and has
developed a plan of specific action to address Recommendation 1 including estimated
completion dates. Additionally, OCIO/NITC concurs with Recommendations 2 and 3 and is
currently identifying and evaluating options to ensure compliance with FISMA reporting
requirements, and implementing compensating controls to mitigate the risk of water damage,
respectively.
OIG Position
We accept management decision on Recommendation 1 presented in the report. With regard to
Recommendations 2 and 3, management decision should be achievable upon review of the
specific plans and timeframes for corrective action.




2       AUDIT REPORT 88401-0001-11
Background and Objectives

Background
The Office of the Chief Information Officer/National Information Technology Center
(OCIO/NITC) has provided services as a federated data center2 since 1973. Its mission is to
provide reliable and cost-effective information technology solutions to achieve effective mission
performance and program delivery for the Department of Agriculture (USDA), its agencies, and
other clients. OCIO/NITC operates a Level IV data center, which utilizes state-of-the-art,
enterprise class infrastructure technologies to deliver optimal yet cost effective solutions.
OCIO/NITC’s secure information technology infrastructure consists of virtualized mainframe
and midrange platforms, as well as virtualized network and storage infrastructure. The systems
and applications managed by OCIO/NITC are national in scope, mission critical, and essential
for the operations of the United States Government. Data center services include infrastructure
as a service, platform as a service, managed hosting, and professional services.

OCIO/NITC provides managed hosting services to many customers, internal and external to
USDA, including the Office of the Chief Financial Officer/National Finance Center
(OCFO/NFC). As a provider of payroll/personnel and application hosting for all of USDA, as
well as approximately 130 non-USDA government entities, NFC is subject to an annual
Statement on Standards for Attestation Engagements (SSAE) No. 16 Controls review. That
review identifies OCIO/NITC as a subservice provider of NFC. The services provided include
hosting hardware/software associated with the production and backup environments of NFC’s
personnel system, EmpowHR, to include access controls, configuration management, and
contingency planning. The result of the SSAE 16 review, along with results of testing at any
agency subservice provider, has a significant impact on the financial statements of user agencies.
Financial data processed by the NFC, along with additional agency-specific financial systems
hosted by OCIO/NITC, are material to the financial statements; therefore, the controls over those
systems play an integral part in assessing the completeness, accuracy, and integrity of USDA
financial data.

Objective
The objective of our review was to assess whether selected controls at OCIO/NITC were in place
and operating effectively in support of key USDA financial systems3 from October 1, 2011,
through July 1, 2012, with a focus on the production and backup environments for the
OCFO/NFC’s EmpowHR application.




2
  A federated data center is a centralized data center, providing participating entities the ability to operate their own
environment with a degree of independence in the overall management of their server infrastructure.
3
  Key USDA financial systems include EmpowHR, and agency specific financial systems for Rural Development,
Farm Service Agency, Commodity Credit Corporation, and the Forest Service.


                                                                            AUDIT REPORT 88401-0001-11                 3
Section 1: Selected IT Controls Need Strengthening
Finding 1: Selected IT Controls Need Strengthening
During our review, we identified three control areas that need strengthening at OCIO/NITC.
Specifically, OCIO/NITC had not developed formal written policy and procedures for incident
response; it did not create, track, and mitigate critical vulnerabilities identified during monthly
scans through the use of Plan of Action and Milestones (POA&M); and protection from water
damage at an alternate processing site was lacking. These conditions occurred because
management believed alternative policies or practices in place were sufficient. As a result,
customer systems could be vulnerable for the items discussed below.

·   We requested policies and procedures for incident response at OCIO/NITC. OCIO/NITC
    was unable to provide a formal documented incident response policy. Instead, OCIO/NITC
    provided the Department’s Standard Operating Procedures (SOP) for Reporting Security and
    Personally Identifiable Information Incidents.4 The purpose of the SOP is to document the
    incident management procedures for the Department’s Computer Incident Response Team,
    which does not apply at the agency level. Departmental policy requires each agency to
    establish, support, and maintain their own internal policies and procedures or assign a team to
                                                                                       5
    support prompt, effective, and efficient resolution of computer security incidents. Without a
    formal documented incident response policy, appropriate action for a suspected security
    incident could be delayed.

·   We analyzed monthly scan results of EmpowHR devices6 and subsequent remediation
    activities for identified vulnerabilities and found that OCIO/NITC does not track and mitigate
    critical vulnerabilities through the use of POA&Ms. Departmental policy requires all USDA
    agencies to perform vulnerability scans on a monthly basis. It further requires a POA&M to
    be developed, in accordance with Federal Information Security Management Act (FISMA)
    reporting requirements, for any unresolved critical vulnerabilities existing more than 30 days
    from the date of the scan.7 While we found that OCIO/NITC used its internal Remedy
    system to track and remediate identified vulnerabilities, Remedy does not meet departmental
    guidelines for FISMA reporting. Additionally, all policy exceptions must be submitted
    directly to the Associate Chief Information Officer for Cyber Security. OCIO/NITC had not
    obtained a waiver from the requirement to create POA&Ms. Without tracking vulnerabilities
    in POA&Ms, departmental oversight can be hindered.

·   Additionally, we performed testing of OCIO/NITC’s contingency planning controls for
    OCFO/NFC’s EmpowHR application and found the potential for water damage to system
    devices at OCIO/NITC’s alternate processing site, located at the George Washington Carver
    Data Center, in Beltsville, Maryland. During a walk-through of the data center, we noted
    overhead water pipes were present and staff did not have access to the water shut-offs.


4
  SOP-ASOC-001, Agriculture Security Operations Center Computer Incident Response Team: Standard Operating
Procedures for Reporting Security and Personally Identifiable Information Incidents (June 9, 2009).
5
  Department Manual (DM) 3505-001, USDA Cyber Security Incident Response Procedures (March 20, 2006).
6
  Scan reports from October 2011 through February 2012.
7
  DM 3530-001, USDA Vulnerability Scan Procedures (July 20, 2005).


4     AUDIT REPORT 88401-0004-11
   Without access to a shut-off valve by data center staff or alternative compensating controls in
   place, the risk of damage to system equipment is increased.
Recommendation 1

Develop and implement formal documented incident response policy and procedures.

Agency Response

OCIO/NITC concurs and has created a POA&M to address this recommendation by
December 21, 2012.

OIG Position

We concur with management decision.

Recommendation 2

Implement the Department’s POA&M process for critical vulnerabilities existing more than 30
days or, alternatively, obtain a waiver.

Agency Response
OCIO/NITC concurs and is currently identifying and evaluating vulnerability POA&M options
that ensure continued compliance with FISMA reporting requirements.

OIG Position

Management decision should be achievable upon review of the specific plans and timeframes for
corrective action.

Recommendation 3
Develop and implement compensating controls to mitigate the risk of water damage at the
George Washington Carver Data Center.

Agency Response
OCIO/NITC concurs and is currently implementing compensating controls to mitigate the risk of
water damage at the George Washington Carver Data Center.

OIG Position
Management decision should be achievable upon review of the specific plans and timeframes for
corrective action.

                                                            AUDIT REPORT 88401-0001-11         5
Scope and Methodology
The period of our review was from October 1, 2011, through July 1, 2012. OCIO/NITC provides
managed hosting services to many customers internal and external to USDA, including the
OCFO/NFC. As a provider of payroll/personnel and application hosting for all of USDA, as
well as approximately 130 non-USDA government agencies, NFC is subject to an annual
Statement on Standards for Attestation Engagement No. 16 (SSAE 16) Controls review. The
result of the SSAE 16 review, along with results of testing at any subservice provider, has a
significant impact on the financial statements of user agencies. Financial data processed by the
NFC, along with additional agency-specific financial systems hosted by OCIO/NITC, are
material to the financial statements; therefore, controls over those systems play an integral part in
assessing the completeness, accuracy, and integrity of USDA financial data.

Our review focused on the specific controls8 managed by OCIO/NITC as a subservice provider
for OCFO/NFC’s EmpowHR system. These controls, which are identified in Exhibit A, include
access controls, configuration management, and contingency planning. The controls tested were
also applicable to other key financial systems hosted at OCIO/NITC. We performed our review
at the OCIO/NITC Data Center in Kansas City, Missouri and two alternate centers located in
St. Louis, Missouri and Beltsville, Maryland.

We obtained supporting documentation in the form of server settings, access logs/reviews,
training records, and agency policies and procedures, as well as physical observations and
interviews with agency personnel. Our results were discussed with OCIO/NITC as we worked to
obtain concurrence on exceptions noted.

Various Departmental Regulations and Manuals related to information technology security were
utilized for this review. We compared the results of the audit tests against departmental, agency,
and National Institute of Standards and Technology (NIST) guidance. Guidance used during the
course of the audit included:

      ·    NIST Special Publication 800-53 Revision 3, Recommended Security Controls for
           Federal Information Systems and Organizations, August 2009

      ·    DM 3505-001, USDA Cyber Security Incident Response Procedures (March 20, 2006)

      ·    DM 3530-001, USDA Vulnerability Scan Procedures (July 20, 2005)

We conducted this review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.



8
    Controls listed in OCFO/NFC’s System Description as managed by OCIO/NITC.


6         AUDIT REPORT 88401-0001-11
Abbreviations
DM .............................. Department Manual
FISMA ........................ Federal Information Security Management Act
NFC ............................. National Finance Center
NIST ............................ National Institute of Standards and Technology
NITC ........................... National Information Technology Center
OCFO .......................... Office of the Chief Financial Officer
OCIO ........................... Office of the Chief Information Officer
OIG ............................. Office of Inspector General
POA&M ...................... Plan of Action & Milestones
SOP ............................. Standard Operating Procedures
SSAE ........................... Statements on Standards for Attestation Engagements
USDA.......................... Department of Agriculture




                                                                  AUDIT REPORT 88401-0001-11   7
Exhibit A: Office of Inspector General Tests of the Office of the Chief
Information Officer/National Information Technology Center Controls
                                                                           Exhibit A – Page 1 of 6




              The subsequent sections of the report's exhibit A (pages 8
              through 13) are not being publicly released due to the
              sensitive security content.




8   AUDIT REPORT 88401-0001-11
Agency’s Response




                    USDA’S
            NATIONAL INFORMATION
             TECHNOLOGY CENTER
           RESPONSE TO AUDIT REPORT




14   AUDIT REPORT 88401-0001-11
United States                                                                            September 21, 2012
Department of
Agriculture

Office of the Chief    TO:          Tracy A. LaPoint
Information Officer
                                    Deputy Assistant Inspector General for Audit
National Information                Office of the Inspector General
Technology Center

8930 Ward Parkway
Kansas City, MO
64114-3363
                       FROM:        Kent W. Armstrong /s/
P.O. Box 419205                     Associate Chief Information Officer
Kansas City, MO
64141-6205                          National Information Technology Center

                       SUBJECT:     OIG Audit Number 88401-0001-11
                                    Review of Selected Controls at the National Information Technology
                                    Center


                       The National Information Technology Center (NITC) has reviewed the draft report on the
                       subject audit. Responses for the three recommendations follow.


                       Recommendation 1:
                              Develop and implement formal documented incident response policy and
                              procedures.
                              NITC Response: We concur with this finding. The NITC is in the process of
                              documenting and implementing formal cyber incident response policy and
                              procedures. NITC has created POAM number 18042 with an expected date of
                              completion of December 21, 2012 to remediate the issue.
                       Recommendation 2:
                              Implement the Department’s POA&M process for critical vulnerabilities more
                              than 30 days old or, alternatively, obtain a waiver.
                              NITC Response: We concur with this finding. The NITC is currently identifying
                              and evaluating vulnerability POA&M options that ensure continued compliance
                              with FISMA reporting requirements.
                       Recommendation 3:
                              Develop and implement compensating controls to mitigate the risk of water
                              damage at the George Washington Carver Data Center.
                              NITC Response: We concur with this finding. The NITC will implement
                              compensating controls to mitigate the risk of water damage at the George
                              Washington Carver Data Center. Estimated date of completion is 10/30/12.
Tracy A. LaPoint                                                               Page 2


If you have any questions, you may contact me at (816) 926-6501 or have a member of
your staff contact Greg Schmitz at (816) 926-2356.

cc:    Jim Steven, Deputy Associate Chief Information Officer, NITC
cc:    Denice A. Lotson, Audit Liaison, OCIO
cc:    Kathy Donaldson, OCFO
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
